Audit
Report
      CHECKS ISSUED DIFFERENCES FOR DEACTIVATED
                 DISBURSING STATIONS


Report No. D-2002-019                 November 28, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies
  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits
  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

  Defense Hotline
  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DCRM                 Defense Check Reconciliation Module
DFAS                 Defense Finance and Accounting Service
FBWT                 Fund Balance With Treasury
                        Office of the Inspector General, DoD
Report No. D-2002-019                                              November 28, 2001
(Project No. D2001FD-0048)

                   Checks Issued Differences for Deactivated
                              Disbursing Stations

                               Executive Summary

Introduction. This is the sixth in a series of audits on the Fund Balance With Treasury
account (an asset account) performed in response to the Chief Financial Officers Act of
1990, as amended by the Federal Financial Management Act of 1994, and the Federal
Financial Management Improvement Act of 1996. This report discusses the
reconciliation of differences reported by the Department of the Treasury for checks
issued by deactivated disbursing stations. The FY 2000 DoD Agency-Wide Financial
Statements reported total assets of $616.7 billion, including $177.5 billion in the Fund
Balance With Treasury account.

The Department of the Treasury provides agencies with reports on differences, because
differences compromise the reliability of Fund Balance With Treasury account balances
and the Department of the Treasury’s published financial reports. As of September 30,
2000, U.S. Treasury reports identified $3.5 billion (absolute value) of differences for
DoD, including differences for interagency transfers ($0.3 billion), deposits
($1.3 billion), and checks issued ($1.9 billion).

Objectives. The overall audit objective was to assess controls over the collections and
disbursements reported to the Defense Finance and Accounting Service centers and the
Department of the Treasury. This report focuses on the objective as it applies to the
reconciliation of checks issued differences by DoD settlement offices after disbursing
station deactivation. We also reviewed the adequacy of the management control
program as it applied to the audit objective.

Results. DoD settlement offices did not reconcile checks issued differences after
disbursing station deactivation. As of February 28, 2001, DoD settlement offices had
not reconciled $408.4 million in checks issued differences assumed from 66 deactivated
disbursing stations. By FY 2005, the Defense Finance and Accounting Service and the
Services plan to deactivate an additional 14 disbursing stations with $73.0 million in
unreconciled checks issued differences. Until the differences are reconciled, the
Department of the Treasury will continue to report differences for checks issued every
month and will be unable to officially close DoD deactivated disbursing stations.
Further, unreconciled checks issued differences can impact the amount of funds
available for expenditure in the accounts. For details on the audit results, see the
Finding section. See Appendix A for details on our review of the management control
program.
Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service, issue guidance to require disbursing stations and settlement
offices to retain records on checks issued until checks issued differences shown on the
Comparison Report are reconciled. We also recommend guidance to establish a
standard method for disbursing stations and settlement offices to clear checks issued
differences from the Comparison Report when data needed to complete the
reconciliation are not available. Further, we recommend that the guidance require
disbursing stations and settlement offices to clear checks issued differences from the
Comparison Report at locations where the data needed to complete the check issued
reconciliation are not available. In addition, we recommend that the Defense Finance
and Accounting Service review settlement office reconciliation of deactivated disbursing
stations’ checks issued differences as part of its self-evaluations.

Management Comments. The Defense Finance and Accounting Service concurred,
stating that the Office of the Under Secretary of Defense (Comptroller) is revising the
DoD Financial Management Regulation to permit the retention period for checks issued
records to be extended for the reconciliation of discrepancies. The Defense Finance
and Accounting Service also agreed to establish a standard method to clear checks
issued differences from the Comparison Report when data needed to complete the
reconciliation are not available, and stated that the Comptroller will submit a legislative
proposal for one-time write-off authority. The Defense Finance and Accounting
Service agreed to require disbursing stations and settlement offices to clear the checks
issued differences when the legislation is enacted. In addition, the Defense Finance and
Accounting Service agreed to review settlement office reconciliation of checks issued
differences as part of its self-evaluations. A complete discussion of management
comments is in the Finding section of the report, and the complete text of management
comments is in the Management Comments section of the report.




                                            ii
Table of Contents

Executive Summary                                                        i

Introduction
     Background                                                          1
     Objectives                                                          3

Finding
     Checks Issued Differences for Deactivated Disbursing Stations      4

Appendixes
     A. Audit Process
            Scope and Methodology                                       11
            Management Control Program Review                           13
     B. Prior Coverage                                                  14
     C. Statement of Transactions and the Fund Balance With Treasury
          Account                                                       16
     D. U.S. Treasury and DoD Guidance for the Fund Balance With
          Treasury Account                                              17
     E. National Archives and Records Administration and DoD Guidance
          on Record Retention                                           19
     F. Records Needed to Reconcile Checks Issued Differences           21
     G. Report Distribution                                             22

Management Comments
     Defense Finance and Accounting Service                             25
           This is the sixth in a series of audits on the Fund Balance With Treasury
           (FBWT) account (an asset account)1 performed in response to Public
           Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990,
           as amended by Public Law 103-356, the “Federal Financial Management Act of
           1994,” October 13, 1994, and Public Law 104-208, the “Federal Financial
           Management Improvement Act of 1996,” September 30, 1996. This report
           focuses on the objective as it applies to the reconciliation of differences reported
           by the Department of the Treasury for checks issued by disbursing stations
           before deactivation (deactivated disbursing stations).

           The first three reports assessed the reconciliation of differences in deposits,
           interagency transfers, and checks issued against the FBWT account. The fourth
           report discussed the disclosure of differences in deposits, interagency transfers,
           and checks issued in the FY 1999 DoD Agency-Wide Financial Statements.
           The fifth report discussed the development and use of performance measures to
           assess how effectively disbursing stations managed the reconciliation of
           differences in deposits, interagency transfers, and checks issued. The FY 2000
           DoD Agency-Wide Financial Statements reported total assets of $616.7 billion,
           including $177.5 billion in the FBWT account.

Background
           The Department of the Treasury makes disbursements and collections for all
           Federal agencies except for those agencies authorized to make disbursements
           independently. Congress provided disbursement authority to DoD under
           section 3321, title 31, United States Code. Each of the agencies, including
           DoD, established disbursing stations to handle money from the Department of
           the Treasury. The disbursing stations are authorized to make deposits, initiate
           interagency transfers, and issue U.S. Treasury checks.

           The Department of the Treasury provides agencies with reports on differences,
           because differences compromise the reliability of Fund Balance With Treasury
           account balances and the Department of the Treasury’s published financial
           reports. As of September 30, 2000, U.S. Treasury reports identified
           $3.5 billion (absolute value) of differences for DoD, including differences for
           interagency transfers ($0.3 billion), deposits ($1.3 billion), and checks issued
           ($1.9 billion).

           Statement of Accountability. Disbursing stations are accountable to the
           Department of the Treasury for their disbursements and collections. Each
           disbursing station is required to prepare a monthly SF 1219, “Statement of
           Accountability,” which reports information to the Department of the Treasury
           on deposits, interagency transfers, and checks issued. The Statement of
           Accountability also reports net disbursements—the sum of the deposits,
           interagency transfers, and checks issued that month.

1
    A Federal entity’s Fund Balance With Treasury account is the aggregate amount of funds in the entity’s
    accounts with the Department of the Treasury for which the entity is authorized to make expenditures
    and pay liabilities.


                                                      1
Each DoD disbursing station submits its Statement of Accountability to a finance
center. Army disbursing stations report to Defense Finance and Accounting
Service (DFAS) Indianapolis, Indianapolis, Indiana; Navy disbursing stations
report to DFAS Cleveland, Cleveland, Ohio; and Air Force disbursing stations
report to DFAS Denver, Denver, Colorado. The U.S. Army Corps of
Engineers (Corps) disbursing stations report to the Corps Finance Center,
Millington, Tennessee.

Each finance center combines the Statements of Accountability received from its
disbursing stations and electronically submits a combined Statement of
Accountability to the Department of the Treasury using the Government On-line
Accounting Link System, a Federal financial telecommunications network.

Disbursing Station Reports on Checks Issued. The “Treasury Financial
Manual,” volume I, part 4, chapter 6000, “Checking Accounts With the United
States Treasury,” March 4, 1991, requires disbursing stations to report
information to the Department of the Treasury on checks issued. DoD
disbursing stations must report their checks issued weekly to the DoD check
reporting system, the Defense Check Reconciliation Module (DCRM), at DFAS
Denver. Disbursing stations electronically transmit the data on checks issued
(the Weekly Transmission Reports) to the DCRM. DFAS Denver, using the
DCRM, sends all Weekly Transmission Reports from DoD disbursing stations
to the Department of the Treasury. In addition, DoD disbursing stations report
their monthly totals of checks issued to their finance centers on line 2.1,
“Checks Issued on U.S. Treasury,” of the Statement of Accountability. The
monthly total of checks issued, as reported on the Statement of Accountability,
should agree with the monthly total of checks issued as shown on the Weekly
Transmission Reports.

Department of the Treasury Checks Issued Reconciliation. The Department
of the Treasury reconciles the checks issued shown on the Weekly Transmission
Reports with the checks issued that are reported on the Statement of
Accountability. The Department of the Treasury also compares the amounts for
checks issued on the Weekly Transmission Reports with the amounts for checks
paid through the banking system. When a checks issued amount on the Weekly
Transmission Report differs from the amount printed on the check presented to a
Federal Reserve Bank for payment, the Department of the Treasury adjusts the
checks issued amount reported on the Weekly Transmission Report to agree
with the amount printed on the check.

The Department of the Treasury reports the reconciliation to DoD on the
“Comparison of Checks Issued -- Detail Reported on Statements of
Accountability and Block Control Level Totals” report (the Comparison
Report). The Comparison Report shows the difference between the amount of
checks issued and reported on the Statement of Accountability and the amount of
checks issued and reported on the Weekly Transmission Reports, as adjusted for
discrepancies in amounts paid.




                                   2
     The Department of the Treasury also provides DoD with the Check Payment
     and Reconciliation 72 Report (the 72 Report). The 72 Report is a monthly
     listing of checks issued obtained from the Department of the Treasury’s database
     of Weekly Transmission Reports. The 72 Report identifies block numbers for
     checks processed, adjustments initiated by the Department of the Treasury, and
     adjustments requested by the disbursing officer. The report assists agencies in
     the reconciliation of the Comparison Report.

     Statement of Transactions. Each DoD disbursing station is also required to
     prepare a monthly SF 1220, “Statement of Transactions,” which reports the
     disbursements shown on the Statement of Accountability by appropriation. The
     Department of the Treasury requires that the net disbursements reported on the
     Statement of Transactions agree with the net disbursements reported on the
     Statement of Accountability. See Appendix C for a discussion of the Statement
     of Transactions and the FBWT account.

Objectives
     The overall audit objective was to assess controls over the collections and
     disbursements reported to the DFAS centers and the Department of the
     Treasury. This report focuses on the objective as it applies to the reconciliation
     of checks issued differences by DoD settlement offices after disbursing station
     deactivation. We also reviewed the adequacy of the management control
     program as it applied to the audit objective. Appendix A discusses the audit
     scope and methodology and the review of the management control program, and
     Appendix B lists prior audits related to the objectives.




                                         3
           Checks Issued Differences for
           Deactivated Disbursing Stations
           DoD settlement offices did not reconcile checks issued differences after
           disbursing station deactivation. As of February 28, 2001, DoD
           settlement offices had not reconciled $408.4 million in checks issued
           differences assumed from 66 deactivated disbursing stations. This would
           not have occurred if DFAS had issued specific guidance. Specifically,
           DFAS guidance did not:

                  •   require disbursing stations and settlement offices to retain
                      records on checks issued until checks issued differences
                      shown on the Comparison Report are reconciled, and

                  •   establish a standard method for disbursing stations and
                      settlement offices to clear checks issued differences from the
                      Comparison Report when data needed to complete the checks
                      issued reconciliation are not available.

           Also, DFAS did not review the reconciliation of checks issued
           differences by DoD settlement offices as part of its self-evaluation.
           By FY 2005, DFAS and the Services plan to deactivate an additional
           14 disbursing stations with $73.0 million in unreconciled checks issued
           differences. Until reconciliation procedures are developed and the
           differences are reconciled, the Department of the Treasury will continue
           to report differences for checks issued every month and will be unable to
           officially close DoD deactivated disbursing stations. Further,
           unreconciled checks issued differences can impact the amount of funds
           available for expenditure in the accounts.

Guidance for Reconciling the Fund Balance With Treasury
  Account
    Reconciling FBWT accounts is a key internal control process. Reconciliation
    ensures the reliability of the Government’s receipt and disbursement data
    reported by agencies. Therefore, all Government agencies must perform timely
    reconciliations and implement effective and efficient reconciliation processes.
    To assist DoD and other Government agencies in their reconciliation efforts, the
    Department of the Treasury has updated the FBWT guidance in the Treasury
    Financial Manual and established a FBWT home page at
    www.treas.gov/fundbalance/index. DoD has also updated the FBWT guidance
    in DoD Regulation 7000.14-R, “DoD Financial Management Regulation.” See
    Appendix D for a discussion of U.S. Treasury and DoD guidance on the FBWT
    account.




                                        4
Checks Issued Differences Relating to Deactivated Disbursing
  Stations
            As of February 28, 2001, the Department of the Treasury reported
            342 disbursing stations with $1,276.4 million in unreconciled checks issued
            differences on Comparison Reports for DoD. However, DFAS records showed
            that 66 disbursing stations (19.3 percent) of the 342 disbursing stations had been
            deactivated by DoD.2 The 66 deactivated disbursing stations accounted for
            $408.4 million (32.0 percent) of the $1,276.4 million in unreconciled checks
            issued differences. U.S. Treasury records showed 63 of the 66 deactivated
            disbursing stations as open and the remaining 3 of the 66 disbursing stations as
            closed.3

Settlement Offices Responsible for Deactivated Disbursing
  Stations
            DFAS records showed that settlement offices at 24 disbursing stations were
            responsible for reconciling the 66 deactivated disbursing stations’ differences.
            The Navy (1 settlement office) and DFAS (23 settlement offices) operated the
            24 disbursing stations’ settlement offices (settlement offices). The 23 DFAS
            settlement offices were responsible for 65 of the 66 deactivated disbursing
            stations and all $408.4 million in unreconciled checks issued differences (except
            $1,392 assigned to the Navy settlement office). DFAS operates settlement
            offices for deactivated Army, Navy, and Air Force disbursing stations.

            Fourteen of the 24 settlement offices were responsible for reconciling checks
            issued differences for more than one deactivated disbursing station.
            Four settlement offices were responsible for five or more deactivated disbursing
            stations. The settlement offices at:

                     •    disbursing station 6789, DFAS Europe, Ramstein Air Force Base,
                          Germany, were responsible for reconciling $221.4 million in checks
                          issued differences applicable to 12 deactivated disbursing stations;
                          and

                     •    disbursing station 5242, DFAS San Diego, San Diego, California;
                          disbursing station 5257, DFAS Omaha, Omaha, Nebraska; and

2
    DoD deactivated the disbursing stations in 1989 (1 station), 1991 (4 stations), 1992 (8 stations), 1993
    (2 stations), 1994 (8 stations), 1995 (9 stations), 1996 (14 stations), 1997 (8 stations), 1998 (4 stations),
    1999 (2 stations), 2000 (3 stations), 2001 (2 stations), and on an unknown date (1 station).
3
    We advised the Department of the Treasury that its records showed three deactivated disbursing stations
    (disbursing stations 5725, 5909, and 8469) as closed but the disbursing stations have differences
    reported on the February 28, 2001, Comparison Report. The Department of the Treasury is reviewing
    the closed classification for the three disbursing stations.



                                                         5
                  disbursing station 6102, DFAS Kansas City, Kansas City, Missouri;
                  were each responsible for five deactivated disbursing stations with
                  checks issued differences, respectively, of $11,099, $13,793, and
                  $16,271.

Settlement Office Reconciliation of Checks Issued Differences
  Relating to Deactivated Disbursing Stations
     DoD settlement offices did not reconcile checks issued differences after
     disbursing station deactivation. As of February 28, 2001, the 24 settlement
     offices had not reconciled $408.4 million in differences for checks issued by
     66 deactivated disbursing stations. Of the $408.4 million in checks issued
     differences, $89.6 million (22.0 percent) were aged 6 years, 3 months, or less;
     and $318.8 million (78.0 percent) were aged more than 6 years, 3 months.4

     Differences Aged 6 Years, 3 Months, or Less. The settlement office at
     disbursing station 3801, DFAS Denver, Denver, Colorado, accounted for
     $89.5 million (99.9 percent) of the $89.6 million in differences aged 6 years,
     3 months, or less. Disbursing station 3801 subsequently submitted reports
     through the DCRM to the Department of the Treasury that eliminated all
     $89.5 million of the differences aged 6 years, 3 months, or less (except for
     $77,626).

     Differences Aged More Than 6 Years, 3 Months. The National Archives and
     Records Administration and DoD require financial records to be available for a
     period of 6 years, 3 months. DoD must maintain the records for a longer period
     when there are compelling reasons to do so. Therefore, disbursing stations and
     settlement offices should retain aged checks issued records that are needed to
     complete the checks issued reconciliation. See Appendix E for a discussion of
     National Archives and Records Administration and DoD guidance on record
     retention. See Appendix F for a discussion of the records needed to reconcile
     checks issued differences.

     Retention Procedures. To determine the availability of aged checks issued
     records, we contacted the disbursing officer at the five settlement offices
     responsible for the largest amounts of aged differences in checks issued by
     deactivated disbursing stations. The five settlement offices were located at
     disbursing station 6789, Ramstein Air Force Base, Germany ($221.4 million);
     disbursing station 8541, Columbus, Ohio ($46.4 million); disbursing
     station 6469, Columbus, Ohio ($18.5 million); disbursing station 6683,

     4
      As of February 28, 2001, deactivated DoD disbursing stations accounted for $318.8 million
     (96.0 percent) of $332.2 million in aged checks issued differences. Of the $318.8 million in
     checks issued differences aged more than 6 years, 3 months, $95.8 million related to the
     20 disbursing stations deactivated more than 6 years, 3 months, prior to February 28, 2001.
     The remaining $223.0 million of the $318.8 million related to the 46 disbursing stations
     deactivated within 6 years, 3 months, of February 28, 2001.



                                                6
            Honolulu, Hawaii ($16.3 million); and disbursing station 6355, Columbus, Ohio
            ($12.6 million). Collectively, the five disbursing stations accounted for
            $315.2 million (98.9 percent) of the $318.8 million in aged checks issued
            differences applicable to deactivated disbursing stations.

            The settlement offices at disbursing stations 6789, 8541, 6469, and 6355 told us
            that the aged checks issued records were destroyed based on their interpretation
            of the DoD record retention policy. The settlement office at disbursing
            station 6683 told us that the office did not receive records applicable to the aged
            checks issued differences from the deactivated disbursing station assigned to its
            office.

            This would not have occurred if DFAS had issued specific guidance on the
            retention of records needed to reconcile checks issued differences. Specifically,
            DFAS did not require disbursing stations and settlement offices to retain records
            on checks issued until the differences shown on the Comparison Report are
            reconciled.

            Corrective Actions. The three settlement offices at DFAS Columbus
            (disbursing stations 8541, 6469 and 6355) sent letters requesting that the
            Department of the Treasury clear the aged checks issued differences from the
            Comparison Report for the six deactivated disbursing stations assigned to their
            offices for settlement. As of May 31, 2001, the Department of the Treasury had
            cleared $20.7 million (26.7 percent) of the $77.5 million in aged checks issued
            differences shown on the Comparison Report.

            The three settlement offices assigned staff and made special requests for
            financial data to reconcile the aged checks issued differences because checks
            issued records were not available to support the amounts for checks issued that
            were shown on the Comparison Report. The settlement offices obtained
            Comparison Reports from the Department of the Treasury and vouchers with a
            listing of limited payability canceled checks5 from DFAS Denver and DFAS
            Indianapolis. The settlement offices identified canceled checks that were not in
            the appropriate month and canceled checks applicable to months with aged
            checks issued differences. The settlement offices then prepared letters
            requesting that the Department of the Treasury adjust the checks issued amounts
            for those months on the Comparison Report. Based on the letters, vouchers,6

5
    A limited payability canceled check is a U.S. Treasury check issued on or after October 1, 1989, which
    is automatically canceled by the Department of the Treasury if not cashed within 12 months from the
    date of issue. The Department of the Treasury identifies checks issued that were not cashed by
    comparing checks issued that DoD reported to the Department of the Treasury with checks that were
    cashed and reported through the banking system to the Department of the Treasury. The Department of
    the Treasury reports the canceled checks to DoD and credits the funds derived from the cancellation to a
    budget clearing account. DoD should transfer the funds in the clearing account to the proper
    appropriation and request that the Department of the Treasury adjust the checks issued amount reported
    through the DCRM.
6
    The vouchers supported transfers from a DoD suspense account to a U.S. Treasury receipt account for
    funds that could not be reconciled to the appropriation charged when the check was issued.



                                                      7
     canceled check listings, and other supporting documentation provided, the
     Department of the Treasury made adjustments to clear the aged checks issued
     differences.

     However, DoD settlement offices were not able to reconcile all aged checks
     issued differences because all checks issued records are not available and all
     aged checks issued differences are not caused by canceled checks. DFAS
     should issue guidance to establish a standard method for clearing checks issued
     differences from the Comparison Report when data needed to complete the
     checks issued reconciliation are not available.

     Also, as part of DFAS self-evaluation, checks issued differences should be
     reviewed after deactivation of a disbursing station. Without this review and
     reconciliation, the Department of the Treasury cannot officially close
     deactivated disbursing stations. See Appendix A for a discussion of the
     management control program review, including the adequacy of management
     controls and the adequacy of management self-evaluation.

DoD Plans for Additional Disbursing Station Deactivations
     By FY 2005, DFAS and the Services plan to deactivate an additional
     14 disbursing stations with $73.0 million in unreconciled checks issued
     differences. Of the $73.0 million in checks issued differences, $71.6 million
     (98.0 percent) were aged 6 years, 3 months, or less, and $1.4 million
     (2.0 percent) were aged more than 6 years, 3 months.

     Of the 14 disbursing stations, 9 disbursing stations include settlement offices.
     The 9 settlement offices are responsible for 39 of the 66 deactivated disbursing
     stations and $221.7 million of the $408.4 million in unreconciled checks issued
     differences.

DoD Progress in Reconciling Checks Issued Differences
     DoD has made substantial progress in reconciling checks issued differences.
     DoD reduced checks issued differences by $5.3 billion (73.6 percent) from
     $7.2 billion on September 30, 1998, to $1.9 billion on September 30, 2000.
     The 73.6 percent reduction in checks issued differences was greater than the

            •   56.9 percent reduction ($50.0 billion) in the amount of checks issued
                from FY 1998 ($87.8 billion) to FY 2000 ($37.8 billion), and the

            •   64.2 percent reduction (12.2 million) in the number of checks issued
                from FY 1998 (19.0 million) to FY 2000 (6.8 million).




                                         8
           The reduction in checks issued differences resulted from the combined efforts of
           the financial accounting and audit communities, and the increased use of
           electronic collections and disbursements.7

Conclusion
           Until reconciliation procedures are developed and the differences are reconciled,
           the Department of the Treasury will continue to report differences for checks
           issued every month on the Comparison Report. In addition, the Department of
           the Treasury will be unable to officially close DoD deactivated disbursing
           stations. The unreconciled checks issued differences can impact the amount of
           funds available for expenditure in the accounts.

           The Director, DFAS, should issue specific guidance to reconcile checks issued
           differences shown on the Comparison Report. The guidance should require
           disbursing stations and settlement offices to retain records on checks issued until
           checks issued differences shown on the Comparison Report are reconciled.
           The guidance should also establish a standard method for clearing checks issued
           differences from the Comparison Report when data needed to complete the
           checks issued reconciliation are not available. Further, the guidance should
           require disbursing stations and settlement offices to clear check issued
           differences from the Comparison Report at locations where the data needed to
           complete the check issued reconciliation are not available.




7
    From FY 1998 to FY 2000, DoD increased electronic collections disbursements made through the
    CA$HLINK system by a net $76.1 billion (46.1 percent) from $164.9 billion to $241.0 billion and
    reduced related differences by $0.3 billion (18.8 percent) from $1.6 billion to $1.3 billion.



                                                     9
Recommendations and Management Comments
    We recommend that the Director, Defense Finance and Accounting Service:

           1. Issue guidance to:

                 a. Require disbursing stations and settlement offices to retain
    records on checks issued until checks issued differences shown on the
    Comparison Report are reconciled.

                   b. Establish a standard method for disbursing stations and
    settlement offices to clear checks issued differences from the Comparison
    Report when data needed to complete the checks issued reconciliation are
    not available.

                  c. Require disbursing stations and settlement offices to clear
    checks issued differences from the Comparison Report at locations where
    the data needed to complete the checks issued reconciliation are not
    available.

           2. Review the reconciliation of checks issued differences by DoD
    settlement offices after disbursing station deactivation as part of its self-
    evaluations.

    Management Comments. The Defense Finance and Accounting Service
    concurred, stating that the Office of the Under Secretary of Defense
    (Comptroller) is revising the DoD Financial Management Regulation to permit
    the retention period for checks issued records to be extended for the
    reconciliation of discrepancies. The Defense Finance and Accounting Service
    also agreed to establish a standard method to clear checks issued differences
    from the Comparison Report when data needed to complete the reconciliation
    are not available, and stated that the Comptroller will submit a legislative
    proposal for one-time write-off authority. The Defense Finance and Accounting
    Service agreed to require disbursing stations and settlement offices to clear the
    checks issued differences when the legislation is enacted. In addition, the
    Defense Finance and Accounting Service agreed to review settlement office
    reconciliation of checks issued differences as part of its self-evaluations.




                                       10
Appendix A. Audit Process

Scope and Methodology
           We obtained U.S. Treasury Comparison Report data for DoD for September 30,
           1998, September 30, 2000, and February 28, 2001. The Comparison Reports
           reflect amounts shown on the Statements of Accountability and in U.S. Treasury
           control totals for all DoD disbursing stations with differences, including
           disbursing stations with zero dollar differences. We manually converted the
           Comparison Reports to an electronic spreadsheet. To ensure the integrity of the
           data, we compared control totals from the spreadsheet with control totals from
           the U.S. Treasury’s Comparison Reports.

           Using a spreadsheet application on the February 28, 2001, Comparison Report
           data, we determined the number of disbursing stations with checks issued
           differences and the total amount of checks issued differences (absolute value).
           In addition, we determined the amount of differences for each individual
           disbursing station. The absolute value for each disbursing station represents the
           sum of the absolute values for each month with an outstanding difference.1

           We identified deactivated disbursing stations with checks issued differences by
           comparing disbursing stations on the February 28, 2001, Comparison Report
           with DFAS records on deactivated disbursing stations. Using a spreadsheet
           application, we determined the number of deactivated disbursing stations with
           checks issued differences and the total amount of the deactivated disbursing
           stations’ checks issued differences. We also used a spreadsheet application to
           determine the deactivated disbursing stations’ checks issued differences aged
           6 years, 3 months, or less, and aged more than 6 years, 3 months. We
           conducted the same analysis on disbursing stations planned for deactivation by
           DFAS and the Services by FY 2005.

           The settlement office for each deactivated disbursing station was also identified
           based on DFAS records. Using a spreadsheet application, we determined the
           number of settlement offices responsible for reconciling the deactivated
           disbursing stations’ checks issued differences. We also determined the number
           of settlement offices responsible for reconciling the differences for more than
           one deactivated disbursing station and the number of settlement offices
           responsible for reconciling the differences of five or more deactivated disbursing
1
    The Department of the Treasury computes differences for each DoD disbursing station monthly. For
    example, if a disbursing station had 15 previous months with uncorrected differences, the disbursing
    station would have 15 separate differences at month-end. The differences represent Statements of
    Accountability that either overstate or understate amounts shown in U.S. Treasury control totals. If the
    disbursing station in the above example had 7 months with overstatements and 8 months with
    understatements, the absolute value of the overstatements and understatements would be computed by
    considering the differences for all 15 months as positive. In computing the absolute value of the
    differences, overstatements would not offset understatements.



                                                      11
stations. We aged the differences by settlement office and determined the
settlement offices responsible for the largest amount of differences aged 6 years,
3 months, or less, and aged more than 6 years, 3 months. We contacted the
disbursing officer at these settlement offices to determine the availability of the
records needed to complete the checks issued reconciliation.

We interviewed operating personnel from the Department of the Treasury
Financial Management Service and DFAS, and reviewed the Treasury Financial
Manual and DoD Regulation 7000.14-R. We also coordinated our audit efforts
with personnel from the Department of the Treasury Financial Management
Service, DFAS Arlington, and the DoD disbursing stations.

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the Department of Defense. This report
provides coverage of the Defense Financial Management high-risk area.

Use of Computer-Processed Data. We relied on computer-processed data
from the U.S. Treasury’s accounting and reporting system to determine the
September 30, 1998, September 30, 2000, and February 28, 2001, differences
for checks issued. Specifically, we relied on computer-processed difference
data shown on the U.S. Treasury’s Comparison Reports. Although we did not
perform a formal reliability assessment of the computer-processed data, we
determined that data on checks issued that DoD reported to the Department of
the Treasury on Statements of Accountability agreed with corresponding
computer-processed data. We did not find errors that would preclude the use of
computer-processed data to meet the audit objectives or that would change the
conclusions in the report.

Audit Type, Dates, and Standards. We performed this financial-related audit
from November 2000 through August 2001 in accordance with generally
accepted Government auditing standards.

Contacts During the Audit. We visited or contacted individuals and
organizations within DoD and at the Department of the Treasury, Hyattsville,
Maryland. Further details are available on request.




                                    12
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    Office of the Under Secretary of Defense (Comptroller) and the DFAS controls
    over differences in checks issued that are reported on Comparison Reports.
    Specifically, we reviewed controls over the reconciliation of checks issued
    differences by DoD settlement offices after disbursing station deactivation. We
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DFAS as defined by DoD Instruction 5010.40. DFAS
    management controls were not adequate for the reconciliation of checks issued
    differences by DoD settlement offices after disbursing station deactivation.
    Specifically, controls were not adequate to ensure that records needed to
    reconcile checks issued differences shown on the Comparison Report were
    retained and checks issued differences were cleared from the Comparison
    Report. Data needed to complete the checks issued reconciliation were not
    available. Recommendations 1. and 2., if implemented, will improve DFAS
    management controls over the reconciliation of checks issued differences
    applicable to deactivated disbursing stations. A copy of the report will be
    provided to the senior official responsible for management controls in the
    Defense Finance and Accounting Service.

    Adequacy of Management Self-Evaluation. DFAS officials identified the
    reconciliation of checks issued differences as part of an assessable unit.
    However, in its evaluation, DFAS officials did not identify the specific material
    management control weaknesses identified by the audit because the DFAS
    evaluation covered a much broader area. Specifically, DFAS did not identify
    the need for DFAS guidance requiring the retention of records for reconciling
    checks issued differences. Also, DFAS did not establish a standard method for
    clearing checks issued differences when data needed to complete the
    reconciliation are not available. During the audit we noted that DFAS was
    seeking approval from the Office of the Under Secretary of Defense
    (Comptroller) to clear aged checks issued differences from the Comparison
    Report using expired or unexpired funds.




                                        13
Appendix B. Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports. The audit organizations
    have issued the following reports related to financial statement issues involving
    the FBWT account.


General Accounting Office
    Report No. GAO-01-847 (OSD Case No. 4015), “Financial Management:
    Improvements in Air Force Fund Balance With Treasury Reconciliation
    Process,” July 18, 2001

    Report No. GAO/AIMD-99-271, “Financial Audit: Issues Regarding
    Reconciliations of Fund Balances With Treasury Accounts,” September 17,
    1999

    Report No. GAO/AIMD-99-3, “Financial Audit: Issues Regarding
    Reconciliations of Fund Balances With Treasury Accounts,” October 14, 1998

    Report No. GAO/AIMD-97-104R, “Financial Audit: Reconciliation of Fund
    Balances With Treasury,” June 24, 1997


Inspector General, DoD
    Report No. D-2001-024, “Performance Measures for Disbursing Stations,”
    December 22, 2000

    Report No. D-2000-123, “Disclosure of Differences in Deposits, Interagency
    Transfers, and Checks Issued in the FY 1999 DoD Agency-Wide Financial
    Statements,” May 18, 2000

    Report No. D-2000-044, “Reconciliation of Differences Reported for Checks
    Issued by the Defense Finance and Accounting Service Columbus Center
    Disbursing Stations,” November 30, 1999

    Report No. 99-226, “Interagency Transfer Reconciliations at Defense Finance
    and Accounting Service Columbus Center Disbursing Stations,” July 28, 1999

    Report No. 99-211, “Deposit Reconciliations at Defense Finance and
    Accounting Service Columbus Center Disbursing Stations,” July 9, 1999


                                        14
Army Audit Agency
    Report No. AA 01-170, “Army’s General Fund Principal Financial Statements
    for Fiscal Year 2000,” February 7, 2001

    Report No. AA 00-168, “Army’s General Fund Principal Financial Statements
    for Fiscal Year 1999: Summary Audit Report,” February 9, 2000

    Report No. AA 99-115, “Army’s Principal Financial Statements for Fiscal
    Year 1998, Centralized Disbursing, Defense Finance and Accounting Service
    Indianapolis Center,” January 27, 1999


Naval Audit Service
    Report No. N2001-0012, “Fiscal Year 2000 Department of the Navy General
    Fund Principal Statements,” February 7, 2001

    Report No. N2000-0018, “Department of the Navy Principal Statements for
    Fiscal Year 1999,” February 10, 2000

    Report No. 054-99, “Department of the Navy Principal Statements for Fiscal
    Year 1998: Fund Balance With Treasury,” August 19, 1999


Air Force Audit Agency
    Report No. 99053001, “Accounting for Selected Assets and Liabilities – Fund
    Balance With Treasury, Fiscal Year 1999,” August 28, 2000
    Report No. 99053002, “Opinion on Fiscal Year 1999 Air Force Consolidated
    Financial Statements,” February 9, 2000

    Report No. 98053001, “Accounting for Selected Assets and Liabilities – Fund
    Balance With Treasury, Fiscal Year 1998,” January 6, 2000

    Report No. 98053002, “Opinion on Fiscal Year 1998 Air Force Consolidated
    Financial Statements,” March 1, 1999




                                      15
Appendix C. Statement of Transactions and the
            Fund Balance With Treasury
            Account
   The Statements of Transactions are combined at the finance centers and
   submitted to the Department of the Treasury. The Department of the Treasury
   records the data from the Statements of Transactions in the FBWT account
   maintained for each appropriation in the U.S. Treasury’s accounting and
   reporting system. Each month, the Department of the Treasury reports the
   outstanding balance in the FBWT account to each Government agency on
   Department of the Treasury Financial Management Service Form 6653,
   “Undisbursed Appropriation Account Ledger.”

   The Department of the Treasury sends the Undisbursed Appropriation Account
   Ledger to each agency on microfiche and electronically through the Government
   On-line Accounting Link System. DFAS uses the Undisbursed Appropriation
   Account Ledger to adjust budgetary data to be reported monthly on SF 133,
   “Report on Budget Execution,” and the Department of the Treasury Financial
   Management Service Form 2108, “Yearend Closing Statement.”




                                     16
Appendix D. U.S. Treasury and DoD Guidance
            for the Fund Balance With
            Treasury Account
           U.S. Treasury Guidance. Volume I, part 2, chapter 5100, “Reconciling Fund
           Balance With Treasury Accounts,” October 18, 1999, of the Treasury Financial
           Manual, requires agencies to investigate all differences in checks issued, and to
           reconcile those differences monthly. The Treasury Financial Manual states that
           agencies should maintain transaction logs to support the checks issued amount
           reported on the Statement of Accountability. The log should also contain a list
           of all U.S. Treasury checks issued and reported on the Weekly Transmission
           Reports, and all adjustments initiated by the Department of the Treasury or the
           agency. Agencies should analyze the transaction log, prepare a list of
           unmatched items (checks issued that were not reported on either the Statement
           of Accountability or the Weekly Transmission Report) and determine the reason
           for the differences.

           Volume I, part 2, chapter 3100, “Instructions for Disbursing Officers’
           Reports,” February 6, 1997, of the Treasury Financial Manual, requires closing
           disbursing stations to have reported all checks issued to the Department of the
           Treasury and to have zero checks issued differences. The Department of the
           Treasury does not consider a disbursing station as closed until the settlement
           office completely resolves all differences shown on the Comparison Report.

           DoD Guidance. In response to Inspector General, DoD, recommendations,1 the
           Under Secretary of Defense (Comptroller) revised DoD Regulation 7000.14-R,
           “DoD Financial Management Regulation,” to add checklists for disbursing
           officers and the DFAS centers to follow regarding checks issued reporting and
           reconciliation. Volume 5, chapter 7, “U.S. Treasury Checks,” May 11, 2000,
           includes checklists that discuss the Comparison Report. The checklists require:

                   •   disbursing officers to ensure that all checks issued data for the month
                       were entered into the DCRM and ensure that the checks issued data
                       submitted to the DCRM agree with the checks issued data reported
                       on the Statement of Accountability, and

                   •   DFAS centers to ensure that disbursing officers correct checks issued
                       differences reported on the Comparison Report within the month of
                       notification.




1
    Inspector General, DoD, Report No. D-2000-044, “Reconciliation of Differences Reported for Checks
    Issued by the Defense Finance and Accounting Service Columbus Center Disbursing Stations,”
    November 30, 1999.



                                                   17
Volume 5, chapter 2, “Disbursing Offices, Officers, and Agents,” May 7,
2001, requires the supporting DFAS center to designate another disbursing
station to handle any uncleared transactions for the deactivating station after
deactivation has occurred. The designated disbursing station is called the
settlement office. The disbursing officer of the deactivated disbursing station
must send the retained records to the settlement office, as required by
chapter 22, “Settlement of Disbursing Officer Accounts,” August 18, 1999.
Disbursing officers preparing a disbursing station for deactivation are
responsible for ensuring that no discrepancies exist in their accountability.




                                    18
Appendix E. National Archives and Records
            Administration and DoD Guidance
            on Record Retention
   National Archives and Records Administration Guidance. The National
   Archives and Records Administration (the Archives) is responsible for issuing
   procedures for the disposal of all Federal Government records. The Archives
   issues the General Records Schedules to provide disposal authorization for
   administrative records common to agencies of the Federal Government. The
   administrative records include records on civilian personnel, procurement, and
   fiscal accounting. Agency records officers may tailor the schedules to the
   particular needs of the agency. General Records Schedule 6, “Accountable
   Officers’ Accounts Records,” December 21, 1998, and previous editions,
   authorize the destruction of accountable officers’ files 6 years, 3 months, after
   the period covered by the account.

   DoD Guidance. DoD Regulation 7000.14-R, the “DoD Financial Management
   Regulation,” provides guidance on the retention policy for financial records by
   DoD. Volume 1, chapter 9, “Financial Records Retention,” August 25, 2000,
   and previous editions, require DoD to maintain financial records, both paper
   and electronic, documenting the acquisition of DoD property, including cash,
   and other financial transactions. Chapter 9 requires DoD to maintain the
   financial records for at least the minimum period specified in the applicable
   Archives General Records Schedule. DoD must maintain the records for a
   longer period when directed by supplemental guidance or there are compelling
   reasons to do so.

   Volume 5, chapter 20, “Assembly and Transmittal of Financial Reports,”
   May 25, 2000, and previous editions, require the DFAS centers to make an
   administrative examination of financial reports, and, when the examination is
   complete, retain the documents. Chapter 20 requires the centers to maintain
   financial reports, including the Statement of Accountability, for a period of
   6 years, 3 months, as required by the Archives. The centers must use the
   records, as needed, for audit and reconciliation purposes, and destroy the
   records after the retention period.

   Volume 5, chapter 21, “Disbursing Office Records,” June 22, 2000, requires
   the retention of original disbursing officer records and associated papers, and
   that the records be readily accessible by the disbursing officer or the designated
   settlement office, for 6 years, 3 months. Original disbursing officer records
   include checks issued records and reports, and any other document, record, log
   or electronic file that supports disbursing transactions or affects the
   accountability of the disbursing officer. When a disbursing station is
   deactivated, all disbursing station records must be provided to the office
   designated to settle the accounts.




                                       19
Previous editions of volume 5, chapter 21 (the May 1996 and November 1999
editions), required the disbursing officer or the designated settlement office to
retain disbursing officer records for 1 year and then destroy the records.

DFAS Manual 5015.2-M, “Records Disposition Schedule,” January 2000,
includes disposition schedules for many types of DFAS records, including
financial records, payroll records, and disbursing records. Schedule 7300,
“Original Disbursing Accounts,” authorizes the destruction of original
Statements of Accountability and supporting records 6 years, 3 months after the
cutoff at the end of the month.




                                    20
Appendix F. Records Needed to Reconcile
            Checks Issued Differences
   Disbursing stations and settlement offices need three types of data to fully
   reconcile checks issued differences reported on the Comparison Report. Data
   are needed on each:

          •   checks issued amount supporting the total checks issued amount
              reported on the Statement of Accountability,

          •   checks issued amount reported on the Weekly Transmission Reports,
              and

          •   adjustments made by the agency to its Statement of Accountability or
              made by the Department of the Treasury to the Weekly Transmission
              Report amounts shown on the Comparison Report.

   The data are needed to identify checks issued and adjustments that were shown
   on the Statement of Accountability and not shown on the Weekly Transmission
   Report, and checks issued and adjustments shown on the Weekly Transmission
   Report and not shown on the Statement of Accountability. Agencies cannot
   fully reconcile checks issued differences reported on the Comparison Report,
   regardless of the age of the differences, without all three data elements.




                                      21
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                           22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         23
Defense Finance and Accounting Service
Comments




                   25
26
27
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Marvin L. Peek
Brian M. Flynn
Robert E. Benefiel, Jr.
Mark S. Henricks
Michael L. Davitt
J. J. Delino
William W. Lemmon
Lisa C. Rose-Pressley
